No. 20-740

 

IN THE

Supreme Court of the United States

 

JIM BOGNET, et al,

Petitioners,
Vv.

VERONICA DEGRAFFENREID, ACTING SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA, et al,

Respondents,

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Third Circuit

 

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the
document contains 3,128 words, excluding the parts of the document
that are exempt by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and

correct.

Executed on March 15, 2021.

     

eph M. Cosgrove
Counsel of Record for Respondent Luzerne County Board of Elections

 
